OIG Audit Report GR-60-08-006

Office of Justice Programs Bureau of Justice Assistance Tribal Drug Courts Program Grants Awarded to Crow Tribe of Indians, Crow Agency, Montana

Audit Report GR-60-08-006


March 2008
Office of the Inspector General


Executive Summary


 The Office of the Inspector General, Audit Division, has completed an audit of the Tribal Drug Courts Program Grant No. 2002‑DC‑BX‑0020 in the amount of $30,000 and Grant No. 2002‑DC‑BX‑0096 in the amount of $494,220 awarded by the Office of Justice Programs (OJP), Bureau of Justice Assistance (BJA), to the Crow Tribe of Indians (Crow Tribe) of Montana. The purpose of Grant No. 2002‑DC‑BX‑0020 was to support the tribal drug court planning process by training the planning team on the key elements of a tribal drug court program and facilitating team building and effective planning. The purpose of Grant No. 2002‑DC‑BX‑0096 was to implement a tribal drug court which targets nonviolent, juvenile, substance abusing offenders. 
 Since 1984, OJP has provided federal leadership in developing the nation's capacity to prevent and control crime, improve the criminal and juvenile justice systems, increase knowledge about crime and related issues, and assist crime victims . As a component of OJP, BJA is dedicated to providing leadership and services in grant administration and criminal justice policy development to support local, state, and tribal justice strategies to achieve safer communities. The overall goals of BJA are to: (1) reduce and prevent crime, violence, and drug abuse and (2) improve the functioning of the criminal justice system . 
 Through the Drug Court Program, which was established by the Violent Crime Control and Law Enforcement Act of 1994 (Public Law 103-322), BJA provides financial and technical assistance to states, state courts, local courts, units of local government, and Indian tribal governments to develop and implement treatment drug courts that effectively integrate substance abuse treatment, mandatory drug testing, sanctions and incentives, and transitional services in a judicially supervised court setting with jurisdiction over nonviolent, substance-abusing offenders. In 1997, the Tribal Drug Court Initiative was created in partnership with the National Association of Drug Court Professionals (NADCP) to assist interested tribal governments with the development of drug courts. 
The Crow Tribe, also known as the Apsáalooke Tribe of Indians, was first recognized by a treaty with the U.S. Government in 1825. The Crow Tribe reservation, established by treaty in 1851, is located in south central Montana. It is the largest of seven reservations in Montana encompassing approximately 2.3 million acres. The Crow Tribe is a community with an enrolled population of approximately 11,000 members, with 7,900 residing on the reservation. 
The purpose of this audit was to determine whether reimbursements claimed for costs under the grants were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grants, and to determine program performance and accomplishments. The objective of our audit was to review performance in the following areas: (1) internal control environment, (2) drawdowns, (3) grant expenditures, including personnel and indirect costs, (4) budget management and control, (5) matching, (6) property management, (7) program income, (8) financial status reports (FSRs) and progress reports, (9) grant requirements, (10) program performance and accomplishments, and (11) monitoring of subgrantees and contractors. We determined that program income and subgrantees were not applicable to these grants. As shown in Table 1, the Crow Tribe was awarded a total of $524,220 for training and to implement the grant program.
 TABLE 1. TRIBAL DRUG COURTS PROGRAM GRANTS TO THE 
  CROW TRIBE OF INDIANS OF MONTANA 


GRANT AWARD 
 AWARD   START       DATE 
 AWARD END DATE 
 AWARD       AMOUNT 
 PURPOSE OF GRANT 


 2002-DC-BX-00202002-DC-BX-0096
 04/01/0205/01/02
 09/30/0312/31/06
 $30,000494,220
 Implementation trainingImplementation


 Total: 
 $524,220
 


Source: Office of Justice Programs
We examined the Crow Tribe’s accounting records, FSRs and progress reports, and operating policies and procedures, and found:

 The Crow Tribe’s Financial Management System Policies and Procedures Manual needs to be updated to reflect actual travel policies used by the Crow Tribe, and provide procedures to perform routine financial functions .
The Crow Tribe did not establish or maintain separate program accounts to track the receipt and disposition of funds for Grant Nos. 2002-DC-BX-0020 and 2000-DC-VX-0026 as required by the OJP Financial Guide.1
Unsupported and unallowable costs totaling $9,719 and $36,285 for Grant Nos. 2002-DC-BX-0020 and 2002-DC-BX-0096 respectively .
The required employee certifications of hours worked on federal award projects were not submitted.
Unsupported matching costs totaling $6,704 for Grant No. 2002‑DC‑BX‑0020 resulted in $2,598 in excess drawdowns .
Computer equipment totaling $4,945 was not accounted for in the asset tracking system and could not be physically located.
The FSRs for Grant No. 2002‑DC‑BX‑0020 were not submitted timely and were generally inaccurate .
The required progress reports for Grant No. 2002-DC-BX-0020 had not been submitted .
The required progress reports for Grant No. 2002-DC-BX-0096 were submitted late, several could not be located by OJP or the Crow Tribe, and most did not include a submission date .
The required Semi-Annual Drug Court Grantee Data Collection Surveys were not submitted.
Unallowable expenses for Grant No. 2002‑DC‑BX‑0096 totaling $16,505 due to the obligation of grant funds prior to the approved grant budget and Grant Adjustment Notice (GAN) releasing the special condition.
The Crow Tribe did not evaluate the financial management systems, processes and procedures, or key internal controls for contractors, and 10 instances were noted in which invoices did not adequately quantify activities and hours worked.

These items are discussed in detail in the Findings and Recommendations section of the report. Our audit objectives, scope, and methodology are discussed in Appendix I. 



Footnotes

Grant No. 2000‑DC‑VX‑0026 was not within the scope of this audit because the records were no longer required to be retained as outlined in the OJP Financial Guide, and were therefore not available.








Return to OIG Home Page